A

fj

•2.6- ZC*\
IN THE SUPREME COURT OF THE UNITED STATES

IN RE BARBARA STONE
Petitioner

On Petition for a Writ of Prohibition and
Writ of Mandamus to the
Eleventh Circuit Court of Appeals;
Southern District Court of Florida Judge Joan Lenard
Southern District Court of Florida Bankruptcy Non-Article III Judge Laurel Isicoff
Judge Carol Lisa Phillips, 17th Circuit Court in Broward County, Florida
Judge Milton Hirsch, 11th Circuit Court in Miami-Dade, Florida

WRIT OF PROHIBITION

FILED
AUG 2 h 2020

AND WRIT OF MANDAMUS;
AND SUPPORTING MEMORANDUM OF LAW

OFFICE OF THE CLERK
SUPREME COURT, U.S.

BARBARA STONE, Petitioner
19 West Flagler St. Ste. 404
Miami, FL 33130
Tel. No. 305-358-9971
Barbara.stone.usa@gmail.com
August 28, 2020

RECEIVED
SEP - 2 2020
•FFICE OF THE CLERK
SUPREME COURT. U.S.

QUESTIONS PRESENTED
QUESTION I.
I.

Should a Writ of Prohibition be issued to the 11th Circuit and Joan Lenard, a
federal district court judge in the Southern District of Florida prohibiting
execution of a void, ex parte, fraudulent, extrajudicial $1,700,000
judgment (the “Ex Parte Judgment”) that perpetrates proven crimes,
extortion, fraud on the court and a scheme to defraud
by Respondent, Roy R. Lustig, falling within the definition of a criminal
enterprise wherein Petitioner’s home, life savings and personal property have
been illegally embezzled by Respondent as a result of his own criminal activities
that are irrefutably proven by official, certified Secretary of State records,
affidavits and court filings; and
Should a Writ of Mandamus be issued to the 11th Circuit and to Joan Lenard
requiring them to vacate the extrajudicial Ex Parte Judgment and to order
Respondent to return all assets and property illegally seized from Petitioner.
QUESTION II

II. Should a Writ of Prohibition be issued to the 11th Circuit and Joan Lenard, a
federal district court judge in the Southern District of Florida prohibiting the
enforcement of an ex parte, extrajudicial, unconstitutional order
(the “Ex Parte Rights Extinguishment Order”) that:
A. Attempts and purports to eviscerate the jurisdiction of this Supreme Court;
B. Extra-judicially and unconstitutionally strips Petitioner and her attorney,
of their fundamental, inalienable Constitutional rights to access any federal
or state court and to sue and defend not only in that judge’s judicial district
but extra-judicially in all other districts, all circuit courts, all state courts,
and all bankruptcy courts throughout the U. S. and in this Supreme Court;
C. Extra-judicially subjects Petitioner and her attorney to life-threatening
danger by prohibiting them from reporting crimes by Respondent and extrajudicially shields Respondent from his criminal acts; and
ii

Should a Writ of Mandamus also be issued to the 11th Circuit requiring it to
vacate that Ex Parte Rights Extinguishment Order.

III.

QUESTION III
Should a Writ of Prohibition be issued to Laurel Isicoff, a non-Article III
bankruptcy court judge in the Southern District of Florida Bankruptcy Court
prohibiting her jurisdiction-less execution of the Ex Parte Judgment
referenced in Question I by issuing collusive unlawful, void, extrajudicial
orders (the “Extrajudicial Bankruptcy Orders”) to perpetrate Respondent’s
fraudulent claim filed in bankruptcy court using the fraudulent Ex Parte
Judgment (where Petitioner has been forced into an involuntary bankruptcy
as a result of the Ex Parte Judgment); and
Should a Writ of Mandamus be issued requiring Laurel Isicoff to vacate the
Extrajudicial Bankruptcy Orders and requiring her to order Respondent, the
trustee, the attorney for the trustee and all other involved parties to return
Petitioner’s illegally seized life savings, assets and property.
QUESTION IV

IV.

Should a Writ of Prohibition be issued prohibiting disqualified Judge Carol
Lisa Phillips, in the 17th Circuit Court in Broward County, Florida and
Judge Milton Hirsch, in the 11th Circuit Court in Miami-Dade, Florida from
presiding in cases (that are inextricably intertwined with Respondent’s
criminal activities in the Southern District Court of Florida and the Southern
District of Florida Bankruptcy Court set forth in Questions I, II and III)
where they are disqualified as a matter of law and fact and from exercising
ultra vires powers when they refuse to comply with law mandating their
disqualification and are extra judicially violating Petitioner’s fundamental,
inalienable Constitutional and due process rights to access to and meaningful
due process in a proper court before a qualified judge.

iii

CERTIFICATE OF INTERESTED PERSONS
Pursuant to Supreme Court Rule 14, the following is a list of all parties to the
proceeding in the court whose judgment is sought to be reviewed:
1. Barbara Stone, Petitioner, a former attorney and a woman naturally born in one
of these United States.
2. Respondents are as follows:
a. the 11th Circuit Court of Appeals;
b. Judge Joan Lenard, Southern District Court of Florida
c. Magistrate Jonathan Goodman, Southern District Court of Florida
d. Non-Article III Judge Laurel Isicoff, Southern District Bankruptcy Court of
Florida
e. Roy R. Lustig
f. Judge Carol Lisa Phillips, 17th Circuit Court, Broward County, Florida
g. Milton Hirsch, 11th Circuit Court, Miami-Dade County, Florida

PETITIONER WAS UNABLE TO RETAIN HER OWN PERSONAL ATTORNEY
AS HE FEARED HE WOULD BE RETALITATED WITH SANCTIONS OR OTHER
RETALIATORY ACTIONS AS A RESULT OF JOAN LENARD’S
ILLEGAL AND VOID EX PARTE RIGHTS EXTINGUISHMENT ORDER (APP. C).
OTHER PROMINENT COUNSEL AND DISTINGUISHED PUBLISHED PROFESSORS
HAVE EXPRESSED THE SAME FEARS OF RETALIATION AND THREATS.

iv

STATEMENT REGARDING RELATED CASES
(INEXTRICABLY INTERTWINED CASES)
WHISTLEBLOWER PROTECTION SOUGHT
3. Joan Lenard strays dehors the record in her extrajudicial Ex Parte Rights
Extinguishment Order (App. C) by falsely leaving this Court with the wrong
impression that cases she cites in other courts were adjudicated on the merits.
4. In Joan Lenard’s Ex Parte Rights Extinguishment Order, she:
a. attempts and purports to usurp this Supreme Court’s jurisdiction;
b. illegally exterminates Petitioner’s right to access all federal, state and
appellate courts anywhere in the country including this Supreme Court;
c. prohibits Petitioner, her counsel and unnamed “Affiliates” from reporting
crimes;
d. illegally and preemptively protects Respondent and his affiliates from their
crimes; and
e. maligns Petitioner; makes self-serving false allegations against Petitioner;
and deceptively leaves this Court with the incorrect impression that cases in
other courts were adjudicated on the merits against Petitioner.
5. Contrary to Joan Lenard’s incorrect and false assertions:
a. There has not been adjudication of or hearing on any substantive
issue in any of said cases, nor adjudication on the merits of any of
said cases, nor in any other case where Petitioner is a party;
b. In other cases shown herein the judges are acting without jurisdiction as
they are disqualified as a matter of fact and law, having failed to respond to
Petitioner’s Motion for Disqualification within 30 days as required by
Florida Rules of Judicial Administration 2.330 (j);
c. These judges, acting without jurisdiction are extorting and threatening
Petitioner that she appear in their extrajudicial court in violation of the
Hobbs Act, 18 U.S.C. § 1951; 18 U.S.C § 241; and 18 U.S.C. § 242;
d. These cases are not taking place in a vacuum. They are derived from and
carried out in collusion and concert with artifices, and criminal acts
of Respondent and controlled by Respondent and his affiliates.
6. Joan Lenard’s misrepresentations and mischaracterizations of these cases can
only evidence the following conclusions:

l\

a. Petitioner, an attorney, is being retaliated as Petitioner has been forced to
become an unwilling whistleblower to ultra vires acts of judges and
wrongdoing by officers of the court. Reference should be made to the case of
Michael Cohen, hereafter, where a judge in the Southern District Court of
New York found retaliation under similar circumstances;
b. All cases are inextricably intertwined with the current matter and all
parties are tied to Respondent and Michael Genden;
c. Petitioner is being unlawfully and wrongfully stigmatized with derogatory,
false labels including “frivolous litigant” in retaliation as Petitioner did not
file the SLAPP lawsuit; did not bring the litigation; there has never been an
adjudication on the merits; nor has Joan Lenard, Jonathan Goodman nor
Respondent has ever disputed Petitioner’s statements or called her a “liar.”
d. The “frivolous litigant” slur is a diversion to divert from Joan Lenard’s
unlawful, void, extrajudicial issuance of the Ex Parte Judgment.
7. These cases document that Respondent has a pattern and history of crimes and
racketeering as shown herein and in the exhibits and that Petitioner has
never been able to obtain remedy:
a. This matter derives from a matter involving Respondent and Michael
Genden, an ultra vires former judge dealing with a vulnerable adult family
member of Petitioner, now deceased, in another court.
b. A Petition of Respondent (App. A-0-4 and App. D-Exh. J) documents that
Respondent extorted the assets of that vulnerable adult to pay himself and
his attorney for suing Petitioner herein in violation of Federal and state
criminal laws.
c. Joan Lenard retaliated against Petitioner by issuing the Ex Parte
Extinguishment of Rights Order when she reported these crimes
instead of ordering a criminal investigation against Respondent and
setting aside the illegal Ex Parte Judgment;
d. Respondent has been adjudicated guilty of felony crimes, including fraud on
the court, repeatedly lying under oath, perjury and subverting the court for
his own illegal financial gain by the 3rd D.C.A. of Florida in Leo’s Gulf Liquor
v. Lakhani, 802 So. 2d 337 (see hereafter);
e. Respondent has a pattern and history of threatening and extorting members
of the Bar. See verified Affidavit of a Florida Bar attorney (App. A-0-5 and
vi

App. D-Exh. E) stating Respondent and Michael Genden threatened her to
withdraw from representing Petitioner and her mother.
f. When that attorney filed the Affidavit, Michael Genden filed a bar complaint
against her.
g. Michael Genden and Joan Lenard engage in the same unlawful conduct by
prohibiting Petitioner from reporting crimes. In response to a criminal
complaint filed by Petitioner, a police officer issued a report that Michael
Genden’s orders forbidding Petitioner from reporting crimes are illegal and
void (as are the Ex Parte Judgment and Ex Parte Rights Extinguishment
Order). It appears Michael Genden retaliated against that officer as when
Petitioner sought further protection, the officer was no longer at the precinct.
h. Reference should be made to App. D-Exh. G and H showing Michael Genden
rated in the bottom 10 of all Florida judges and reported on the Robing Room
as “terrible,” “impossible to get rid of’ and “a pathetic excuse for a judge.”
8.. Petitioner is an attorney, previously with licenses in Florida and N.Y.
a. Petitioner retired from the practice of law having served as an attorney for
over 25 years.
b. Petitioner never had a complaint from any client and received a letter from
the Bar thanking her for her extraordinary years of service when she retired.
c. Petitioner, as an attorney has ethical obligations to report the misconduct of
judges and attorneys under Rule 4-8.3 of the Bar rules.
d. When Petitioner brought the unethical conduct of Respondent and Michael
Genden to the

attention of the

Florida Bar,

they retaliated,

and

preposterously even though Petitioner was retired and with commendation
for her many years of services, she was stripped of her law license.
e. Instead, Petitioner should have been provided whistleblower protection.
f. Subsequent to practicing law, Petitioner was a real estate broker for many
years with Corcoran, one of the most prestigious brokerage firms in the
country,

See App. D-Exh. D with glowing testimonials of Petitioner’s

character and integrity.
9. Petitioner seeks whistleblower protection from this Supreme Court to protect her
from retaliation for reporting the wrongdoing described herein.

vii

10. Petitioner seeks issuance of writs of mandamus and prohibition by this Supreme
Court with regard to the inextricably intertwined cases below prohibiting these
judges from acting without jurisdiction and exercising extrajudicial powers:
A. CASE NO: CACE - 2018 - 021101
17th Circuit/Broward County Judge Carol Lisa Phillips
William Elmore vs. Barbara Stone Defendant / Counter-Plaintiff
vs William Elmore, Counter-Defendant Mark F. Raymond
See Paragraph D in the Opinions Below Section
11.Motion for Disqualification filed by Petitioner on September 23, 2019. (App. 1-1).
12. Disqualified Phillips did not file a response within 30 days as required by
Florida Rules of Judicial Administration 2.330 (j) which provides that if not
ruled on within 30 days it shall be deemed granted.
13. Disqualified Phillips illegally, extra judicially and without jurisdiction continues
to issue void illegal orders depriving Petitioner of her Constitutional rights and
property.
14. Disqualified Phillips has threatened Petitioner to extort her to appear in her
jurisdiction-less court and has ex parte scheduled an illegal hearing on August
20, 2020 (App. 1-2) where she threatens to issue an illegal retaliatory gag order
to silence Petitioner from reporting crimes.
15.This violates Federal laws including but not limited to the Hobbs Act, 18 U.S.C.
§ 1951; 18 U.S.C § 241; and 18 U.S.C. § 242.
16. The parties in this matter and the Miami Dade Disqualified Judge matter
hereafter described are the same and/or related:
a. The same lawyers, Mark Francis Raymond and Carl Rosen are involved.
b. The clients of these lawyers are related. Oppenheimer and Co., the counter­
defendant is the former employer of and fired the client of Mark Francis
Raymond and Carl Rosen in the Miami Dade County matter, an estranged
sibling of Petitioner.
c. Mark Francis Raymond and Carl Rosen are defendants in other actions filed
by Petitioner.
d. Mark Francis Raymond and Carl Rosen have a history of conflict of interest
by using their client’s confidential information for their self gain. Carl Rosen

viii

has been sued in a $250,000,000 lawsuit by a former client (the “Scott
Lawsuit”).1
e. It is obvious Mark Raymond and Carl Rosen sought out Oppenheimer to front
this illegal, retaliatory gag attempt against Petitioner, having themselves
repeatedly sought gag orders against Petitioner to bar her from reporting
their criminal activity.
17. At a prior jurisdiction-less hearing when Petitioner questioned why Disqualified
Phillips has never adjudicated her complaint against Counter-Defendant on the
merits and why Disqualified Phillips refuses to concede her disqualification,
Disqualified Phillips put Petitioner on “mute” and ex parte scheduled
the illegal gag order hearing.
18. This is analogous to a rape victim saying “NO” to being raped and having a
pillow put over her face to silence her while she is raped.
19. Petitioner said “NO” to the rape of her fundamental, inalienable Constitutional
and due process rights to have her substantive matters heard at a meaningful
hearing before a qualified judge and Disqualified Phillips suffocated her of her
voice, silenced her and continued to rape her of her rights and schedule
jurisdiction-less, ultra vires, meaningless sham hearings.
20. Mark Francis Raymond, Carl Rosen and others are complicit in these actions
and the use of threats to extort Petitioner to appear in Disqualified Phillips
jurisdiction-less court.
21. Petitioner is being extra judicially denied of her Constitutional and due process
rights to have her matters meaningfully heard before a judge acting with
jurisdiction.
B. CASE NO: 19-4417 -06
11th Circuit/Miami-Dade County Judge Milton Hirsch
In Re: Helen Stone
See Paragraph D in the Opinions Below Section
22.Motion for Disqualification filed by Petitioner on 1/14/20 (App. J).

l

Rebecca and Steven Scott allege in their complaint filed in Florida state court that Carl Rosen,
created a conflict by agreeing to set up trusts for their children and Steven's mother but then went
behind their backs to work separately with their oldest son Jan 17, 2020 Nelson Mullins Sued for
Malpractice by Florida Couple
https://news.bloomberglaw.com > us-law-week > nelson-mufllns-sued-for-...
ix

23. Disqualified Hirsch did not file a response within 30 days as required by Florida
Rules of Judicial Administration 2.330 (j) which provides that which provides
that if not ruled on within 30 days it shall be deemed granted.
24. Disqualified Hirsch illegally and without jurisdiction issues void illegal orders
depriving Petitioner of her Constitutional rights and property.
25.There has never been an adjudication of any substantive matter in accordance
with the Constitution.
26. The appellate court is complicit.
27. As with the Scott Lawsuit, hereto, Mark Francis Raymond and Carl Rosen are
acting in self interest and criminal conflict of interest by their illegal actions as
purported attorneys for the estate as the estate has a claim against them and
they have alleged a claim against the estate.
28. Petitioner is being extra judicially denied of her Constitutional and due process
rights by Disqualified Hirsch to have her substantive matters meaningfully
heard before a judge acting with jurisdiction.

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

11

CERTIFICATE OF INTERESTED PERSONS

IV

STATEMENT OF OTHER RELATED CASES

v

TABLE OF CONTENTS

xi

APPENDICES

xvi

TABLE OF AUTHORITIES

xvm

OPINIONS BELOW

1

JURISDICTION

7

INTRODUCTION

10

STATEMENT OF THE CASE

11

REASONS FOR GRANTING THE PETITIONS FOR PROHIBITION
AND MANDAMUS

19

I. As to the Petitions for Writ of Prohibition and Mandamus with regard
to 11th Circuit and Joan Lenard:
A. Petitioner is a victim of a criminal enterprise perpetrated in the
United States courts and her fundamental, inalienable
Constitutional and due process rights to defend her home and
property have been violated.
B. An ex parte, void, extrajudicial, illegal judgment in the sum of
$1,700,000 (the “Ex Parte Judgment”) App. B was entered against
Petitioner on the basis of a farcical lawsuit against her by
Respondent (who has a history of cheapening, defiling and
subverting the court for illegal financial gain and found guilty
thereof by the 3rd D.C.A.) as hereafter set forth.
Lustig fabricated an injury by falsely claiming he was not hired by a
xi

company that has been shown by the records of the Secretary of
State not to exist (App. A-0-1 and App. A-0-2).
As part of the scheme, he fraudulently alleged that a non-identified
“member” of the non-existing company saw unflattering information
about him including obscene materials formatted as “forwarded”
emails, unidentified by any I.P. address that he falsely alleged were
sent by Petitioner. It has been proven the emails were sent by
Respondent’s family members and business associates. (App. A-0-3).
An integral part of the scheme including diverting and intercepting
Petitioner’s mail in order that she would not have not of any court
proceedings and the opportunity to appear.
The scheme was funded by Respondent who stole the assets of a
vulnerable adult family member of Petitioner in another matter to
pay himself and his attorney for suing Petitioner in this inextricably
intertwined matter.
C. There was never an adjudication of the merits of the fabricated
statement by Roy R. Lusitg or production of evidence.
Instead the following extra judicial events occurred:
a. Petitioner was unlawfully held in default when she was not in
default to trigger an “injury” trial;
b. Joan Lenard ruled that magistrate Jonathan Goodman had no
authority to conduct a “injury” trial because Petitioner had not
agreed to a magistrate as required by 28 U.S.C.§636 but then
extrajudicial

Jonathan

Goodman

conducted

just

such

a

extrajudicial trial;
c. the “injury” trial was held without notice to Petitioner and the
opportunity to appear in court to defend herself as Petitioner’s
mail was both deliberately withheld from her by Joan Lenard and
criminally tampered with by Respondent;
d. the ex parte “injury” trial was by a magistrate, Jonathan
Goodman acting without jurisdiction; authority and consent;
e. Jurisdiction-less Jonathan Goodman made no oral or written

xii

findings of injury nor an injury amount at the ex parte
extrajudicial “injury” trial where he acted without jurisdiction;
authority and consent, instead he illegally authorized Respondent
to act in extrajudicial capacity and prepare his own ex parte
written “findings”;
f. subsequent to the ex parte extrajudicial “injury” trial, Respondent
himself made up his own proposed ex parte written “findings” of
“injury” in the sum of $1,700,000 without Petitioner knowledge;
g. Jonathan

Goodman

and

Joan

Lenard

unlawfully

used

Respondent’s own ex parte illegal fabricated fraudulent “finding”
of “injury” to issue a void, illegal, ultra vires judgment in the sum
of $1,700,000 against Petitioner; and
h. Petitioner’s home, life savings and personal property have been
illegally seized by Respondent as a result of his own criminal
activities and fraud on the court using the fraudulent, fabricated
Ex Parte Judgment to file a fraudulent claim in a bankruptcy
court where Petitioner was forced into involuntary bankruptcy.
D.

When Petitioner filed Declaratory Judgments with Joan Lenard
setting forth these illegal activities, fraud on the court and violation
of Petitioner’s fundamental inalienable due process, Joan Lenard
issued the illegal, void extrajudicial Ex Parte Rights
Extinguishment Order”) App. C that:
a.

Purports to eviscerate the jurisdiction of this Supreme Court;

b. extra-judicially strips Petitioner, her attorney, and unnamed
“Affiliates” of their fundamental, inalienable Constitutional,
human, and civil rights to sue and defend not only in that judge’s
judicial district but extra-judicially in all other districts, all circuit
courts, all state courts, and all bankruptcy courts throughout the
U. S. and in this Supreme Court;
c. extra-judicially subjects Petitioner, her attorney, and unnamed
“Affiliates” to life threatening danger by prohibiting them from
reporting crimes by Lustig, and his unidentified “Affiliates;”
d. extra-judicially protects Respondent from his criminal acts.

xiii

II. As to the Petitions for Writ of Prohibition and Mandamus with regard
\

to Laurel Isicoff:
a. Laurel Isicoff is illegally, extra judicially and without jurisdiction
using the bankruptcy court to collude and conspire in a fabricated,
fraudulent claim of lien filed by Respondent using the Ex Parte
Judgment that she knows is the product of his criminal acts;
b. Laurel Isicoff is illegally, extra judicially and without jurisdiction
using the bankruptcy court to illegally seize Petitioner’s home, life
savings and property using a fabricated, fraudulent claim of lien
filed by Respondent using the Ex Parte Judgment that she knows is
the product of his criminal acts in obstruction of Petitioner’s justice
and in violation of Petitioner’s fundamental, inalienable
Constitutional and due process rights;
c. Laurel Isicoff is holding illegal extrajudicial proceeding for this
purpose and extrajudicially threatening, intimidating and extorting
Petitioner to appear in her jurisdiction-less court in violation of the
Hobbs Act, § 1951; 18 U.S.C § 241; and 18 U.S.C. § 242.
III. As to the Petitions for Writ of Prohibition and Mandamus with
regard to Carol Lisa Phillips and Milton Hirsch:
a. Carol Lisa Phillips and Milton Hirsch are disqualified judges as a
matter of law and fact who refuse to comply with the law and
remove themselves.
b. Carol Lisa Phillips and Milton Hirsch are thereby acting
extrajudicially and without jurisdiction and violating Petitioner’s
fundamental, inalienable Constitutional and due process rights to
access to a Constitutional court.
c.

Carol Lisa Phillips and Milton Hirsch are thereby violating
Petitioner’s fundamental, inalienable Constitutional rights to
meaningful due process in a Constitutional court;

d. Carol Lisa Phillips and Milton Hirsch are thereby violating
Petitioner’s fundamental, inalienable Constitutional rights by
extra judicially subjecting Petitioner to illegal void orders;
xiv

e. Carol Lisa Phillips and Milton Hirsch are holding illegal
extrajudicial hearings and extra judicially threatening and
intimidating Petitioner to appear in their jurisdiction-less court
where they are in violation of the Hobbs Act, § 1951; 18 U.S.C
§241; and 18 U.S.C. §242.
IV. This matter constitutes a dangerous Constitutional Crisis.
a. Petitioner is denied access to any Federal, state and appellate court
anywhere in the country and this Supreme Court in violation of her
fundamental, inalienable Constitutional rights;
b. This jurisdiction of this Supreme Court has been attempted to be
stripped;
c. Petitioner is denied remedy in any Federal, state and appellate
court anywhere in the country in violation of her fundamental,
inalienable Constitutional rights;
d. Petitioner is denied counsel in violation of her fundamental
Constitution rights;
e. Petitioner is in danger as she has been illegally prohibited from
reporting crimes;
f. Petitioner is being threatened, extorted and intimidated to appear
in extrajudicial courts of extrajudicial judges acting without
jurisdiction;
g. The

foregoing

unprecedented

acts

require

mandatory

not

discretionary relief by Writ of Mandamus and Prohibition;
h. This Court is entrusted to protect the most fundamental,
inalienable Constitutional, human and civil rights and due process
of American citizens including access to the courts; to counsel; to
petition for redress; to defend against the deprivation of rights
CONCLUSION

26

CERTIFICATE OF COMPLIANCE

28

CERTIFICATE OF SERVICE

28

XV

TABLE OF CONTENTS - Continued
APPENDICES
APPENDIX A-0-1:

Non-letterhead document filed by Respondent where David
Nepo falsely represents he is a member of IIG who did not
hire Lustig based on unflattering documents/obscene emails.
This is a product of fraud on the court as:
1. IIG does not exist and David Nepo is not a member of the
non-existent company as shown by Secretary of State of
Florida official records in Appendix A-0-2; and
2. The unflattering documents/obscene mails were created
and circulated by Respondent himself and his family
members as shown in Appendix A-l (Paragraph 16) and
Appendix A-0-3.

APPENDIX A-0-2:

Certified, sealed Secretary of State of Florida Corporate
Status and Articles of Incorporation irrefutably documenting:
1. Respondent/Respondent’s claim of injury is fabricated as
IIG, the company he falsely stated did not hire him does
not exist; and
2. David Nepo is not a member of the non-existent company.

APPENDIX A-0-3:

Direct email exchange between Erica Lustig and Greg Reuter
using her Erica.lustig@aol.com email address;
Transcript documenting Respondent lied under oath,
committed perjury and fraud on the court by falsely
representing Petitioner owned the Erica.lustig@aol.com email
address.

APPENDIX A-0-4:

APPENDIX A-l:

Petition filed by Respondent to obtain illegal financial gain by
stealing the assets of Petitioner’s family member, a vulnerable
adult to pay himself and his attorney for suing Petitioner in
this matter.
Affidavit by Petitioner’s counsel attesting to threats made to
her by Respondent
Declaratory Judgment Summary

APPENDIX A-2:

Declaratory Judgment as to Joan Lenard

APPENDIX A-3:

Declaratory Judgment as to Respondent

APPENDIX B:

Ex Parte Judgment

APPENDIX A-0-5:

xvi

APPENDIX C:

Ex Parte Rights Extinguishment Order

APPENDIX D:

All Writs Petition/Appeal/Declaratory Judgment filed with 11th
Circuit Court Of Appeals

APPENDIX E:

Supplement to All Writs Petition Appeal/Declaratory
Judgment filed with 11th Circuit Court Of Appeals

APPENDIX F:

Certificate of Emergency filed with the 11th Circuit Court Of
Appeals

APPENDIX G:

11th Circuit Court Of Appeals Order

APPENDIX H-l:

Summary Judgment Bankruptcy Hearing Order

APPENDIX H-2

Bankruptcy Dehor Order

APPENDIX I -1

Petitioner’s Disqualification Motion filed with Carol Lisa
Phillips to which there was no response within 30 days
thereby Carol Lisa Phillips is automatically disqualified as a
matter of law

APPENDIX 1-2

Illegal, extrajudicial, jurisdiction-less hearing scheduled ex
parte by Carol Lisa Phillips

APPENDIX J

Petitioner’s Disqualification Motion filed with Milton Hirsch
to which there was no response within 30 days thereby Milton
Hirsch is automatically disqualified as a matter of law

* filed by Petitioner with Joan Lenard

xvii

TABLE OF AUTHORITIES
Baltimore & Ohio R. Co. 207 U.S. 142 (1907)

8, 23

Bulloch v. United States, 763 F.2d 1115 (10th Cir. 1985)

21

Club Misty, Inc. v. Laski, 483 F.3d 942, (9th Cir. 2007)

24

Cohens v. Virginia, 19 U.S. (6 Wheat) 264 (1821)

25

Cox v. Burke, 706 So.2d 43 (Fla. 5th DCA 1998)
Dodd v. The Florida Bar, 118 So. 2d 17 (Fla. 1960)

2
22

Elliot v. Piersol, 26 U.S. 328 (1828)

26

Goldberg v. Kelly, 397 U.S. 254 (1970)

24

Gomez v. U.S., 490 U.S. 858 (1989)

24

Hazel-Atlas Glass Co. v. Hartford-Empire Co. 322 U.S. 238 (1944)
Hertz Corp. v. Alamo Rent-A-Car, Inc., 16 F.3d 1126 (11th Cir. 1994)
Kenner v. Comm’r of Internal Revenue, 387 F.2d 689, 691 (7th Cir. 1968)

20, 22
26
20, 22

Leo’s Gulf Liquor v Lakhani 802 So 2d 337 (Fla, 3d DCA 2001)

16

Metropolitan Dade County v. Martinsen, 736 So.2d 794 (Fla. 3d DCA 1999)

16

Molloy v Astrue, 2010 WL 421090, Civil Action No. 08-4801(JAG)

24

Mullane v. Central Hanover Bank & Trust Co., 339 U.S. 306 (1950)

24

New York Mutual Life Insurance Company v. Armstrong, 117 U.S. 591 (1886)..... 26
Pierson v. Ray, 386 U.S. 547 (1967)

25

Riggs v. Palmer, 115 N.Y. 506 (1889)

26

S. v. Will, 449 U.S. 200, 216, 101 S.Ct. 471 (1980)

25

Salinas v. United States, 522 U.S. 52, 61 (1997)

13

xviii

St. Thomas & St. John Police Benevolent Association v.
Virgin Islands Police Department, 2016 WL4581322, at *7 (V.I. Super., 2016)

24

U.S. v. Gamba, 483 F.3d 942, 951 (9th Cir. 2007)

25

Valley v. Northern Fire & Marine Ins. Co, 254 U.S. 348 (1920)

25
26

Williamson v. Berry, 8 How. 945 (1850)
CONSTITUTIONAL PROVISIONS
Constitution Supreme Clause Article VI, Clause 2

25

USC Const. Amend I

22

USC Const. Amend V,

22

USC Const Amendment VIII

18

USC Const Amend XIV,

18, 22

STATUTES
Ethics in Government Act of 1978

5

Judiciary Act of 1789

7

8 U.S.C. § 1324c

13, 15

10 U.S.C. §921

13

11 U.S.C. §326

5

18 U.S.C. § 2

3

18 U.S.C. § 3

3

18 U.S.C. §4

3

18 U.S.C.§ 371

3

18 U.S.C.§ 373.
18 U.S.C. §641

3
5
xix

18 U.S.C. § 645

5

18 U.S.C. § 654

5

18 U.S.C. §872

5

18 U.S.C.§ 880

5

18 U.S.C.§ 912

5

18 U.S.C. § 1001

13, 15

18 U.S.C. § 1038

15

18 U.S.C. § 1512

13

18 U.S.C. § 1621

13

18 U.S.C. § 1623

13, 15

18 U.S.C. § 1951

3, 6

18 U.S.C. § 1961-1968

1

18 U.S.C. § 1962(d)

13

18 U.S.C. § 3559(c)(2)(C)

13

28 U.S.C. §636

14, 24

28 U.S.C. § 1651(a)

7

31 U.S. Code § 3729

3, 13

42 U.S.C. § 1986

9

42 U.S.C. § 3002

13

Florida Statutes 825.103

13

Florida Bar Rule 3-4.3; Rule 4-1.2 (d); Rule 4-1.6; Rule 4-3.3; and Rule 4-8.4

xx

3

Florida Bar Standards for Imposing Lawyer Sanctions § 5.11(b) (1986)

3

The Federalist Papers

21

Federalist Papers /Commonsense Doctrine

21

The Federalist Papers No. 78

9, 24
21

The Federalist Papers No 83
Magna Carta

8, 23
9, 18, 23

Declaration of Independence

2, 4, 18

JUDICIAL CANONS

xxi

OPINIONS BELOW
A. THE SOUTHERN DISTRICT COURT OF FLORIDA EXTRAJUDICIAL TRIAL
COURT JUDGE ORDERS ARE VOID AND ILLEGAL
1. Joan Lenard issued an illegal void extrajudicial EX PARTE Judgment (App. B)
in the sum of $1,700,000 against Petitioner in a diabolical, Machiavellian1
fraudulent lawsuit by Respondent, Roy R. Lustig that perpetrates his criminal
enterprise to defraud.
2. Respondent devised a criminal scheme to defraud 2 by assembling his family
members and affiliates to fabricate an “injury” by falsely claiming he was not
retained by a company THAT DOES NOT EXIST. See fraudulent document
filed by Respondent (App. A-0-1) and Official Sec of State Reports: (App. A-0-2;
App. D -Exh. C; and App. E- Exh. A).
3. As part of the criminal scheme, Respondent, his family and affiliates circulated
purportedly (easily altered) “forwarded” obscene emails to each other falsely
claiming they were sent by Petitioner and seen by a non-existent member of the
non-existent company who did not hire him. (App A-0-2 and App. A-3 proves
obscene emails were sent by Respondent’s daughter, Erica Lustig from
Erica.lustig@aol.com).
4. Respondent funded this criminal scheme by stealing assets of Petitioner’s family
member, a vulnerable adult who was not a party to and knew nothing of this
matter paying him and his attorney to sue Petitioner from the vulnerable adult
funds in an inextricably intertwined case he was involved (App. A-0-4 and App.
D-Exh J).
5. The outlandish Ex Parte Judgment seizing Petitioner’s life savings and
home was illegally issued ex parte in violation of fundamental
Constitutional due process as she was deprived notice of hearing, was
not in court and denied her rights to defend herself, obstructing
Petitioner’s justice.
6. When Petitioner filed Declaratory Judgments (App A-l; App. A-2; App. A-3)
documenting Respondent’s criminal enterprise and violation of fundamental, due
process instead of vacating the void, illegal Ex Parte Judgment, Joan Lenard:
1 Mach i -a ■vel li an: cunning, scheming, and unscrupulous. Oxford Dictionary
2 18U.S.C. § 1961-1968
1

a. ex parte and extra-judicially issued the Ex Parte Rights Extinguishment
Order (App. C) stripping Petitioner and counsel of all rights to sue and defend
in any Federal, state and appellate court in the country and this Supreme
Court; and
b. placed Petitioner and counsel in danger by prohibiting them from filing
criminal complaints against Respondent and his accomplices.
7. By her illegal, extrajudicial Ex Parte Rights Extinguishment Order, Joan
Lenard has extinguished the Constitution; purports to eviscerate this Supreme
Court’s jurisdiction; deliberately placed Petitioner and counsel in danger; and
shielded Respondent and his unidentified “Affiliates” from their crimes.
8. The Ex Parte Judgment and Ex Parte Rights Extinguishment Order (collectively
“Extrajudicial Orders”) have no legitimacy, are a threat to the American public,
the world and the entire judicial system and cannot be permitted to stand.
B. THE ELEVENTH CIRCUIT COURT OF APPEALS EXTRAJUDICIAL
OPINION IS ILLEGAL AND VOID
9. The Eleventh Circuit Court of Appeals order (the “11th Order”) is App. F.
10. Petitioner does not recognize jurisdiction of the Eleventh Circuit Court of
Appeals nor could any reasonable party as the illegal void shameful 11th Order
violates law:
a. It does not address merits; effectuates Respondent’s crimes and fundamental
Constitutional violations when it is mandated to vacate the Extrajudicial
Orders SUA SPONTE and/or by Petitioner’s filing.
b. The 11th Circuit is violating 18 U.S.C. § 2 and § 3 and judicial canons.
c. The 11th Order is ultra vires as 11th Circuit jurisdiction was challenged by
Petitioner who requested and was not provided no-conflict statements;
financial disclosure; and signed oaths of office.
d. The 11th Order is divisive, disingenuous and retaliatory. Instead of vacating
the illegal void ex parte Extrajudicial Orders, it attacks Petitioner, ignoring
Petitioner is wrongfully put in the position of “uncovering falsehoods”. See
Cox v Burke, 706 So.2d 43 (1998) stating “The integrity of the civil litigation
process depends on truthful disclosure of facts. A system that depends on an
adversary's ability to uncover falsehoods is doomed to failure, which is why
this kind of conduct must be discouraged in the strongest possible way.”
2

e. It is not signed in violation of 15 U.S.C. § 7003.
f. One of the judges is not identified by full name, a violation of judicial ethics.
g. The 11th Circuit acts in a demonstrably egregious and hostile manner and as
Petitioner’s adversary in violation of judicial canons.
11. These acts are prejudicial to effective and expeditious administration of court
business.
12. These violations of fundamental laws cheapen the integrity of the Courts and
perception the 11th Circuit is acting in an independent capacity and should cause
this Honorable Court grave concern.
13. This Supreme Court itself expressed concerns over troubling acts of the 11th
Circuit and chastised it in a habeas corpus matter on June 12, 2020 questioning
if its procedures are “consistent with due process."3
C. THE ILLEGAL VOID BANKRUPTCY COURT ORDERS
14. Using the illegal void Ex Parte Judgment, Respondent in criminal violation of 18
U.S.C. § 157 filed a perjured, fabricated claim in the bankruptcy court of Laurel
Isicoff where Petitioner was forced into involuntary bankruptcy.
15. The instant Petitioner filed Declaratory Judgments and was retaliated by the Ex
Parte Rights Extinguishment Order, in sordid conspiracy, Laurel Isicoff and the
“Isicoff Insider Team” (hereafter defined) set an illegal Summary Judgment
hearing (App. H-l) knowing Respondent’s claim is fabricated, fraudulent
and perjured.
16. This violates a staggering array of laws including False Claims Act, 31
U.S.C. §3729; Hobbs Act, 18 U.S.C. § 1951; 18 U.S.C. § 2 and § 3; 18 U.S.C. §4;
18 U.S.C. § 371; 18 U.S.C. § 373.
17. Florida Bar rules including Rule 3-4.3; Rule 4-1.2 (d); Rule 4-1.6; Rule 4-3.3; and
Rule 4-8.4 prohibit a lawyer from making false statements, offering evidence
known to be false, assisting a client in conduct he/she knows or should know is
criminal or fraudulent, fabricating evidence or assisting a witness to testify
falsely, committing a criminal act that reflects adversely on honesty,

3 ‘Troubling Tableau’ in 11th Circuit’s Prisoner Cases .
https://www.nvtimes.com/2020/06/15/us/nolitics/...
Jun 15, 2020 • ‘Troubling Tableau’ in 11th Circuit’s Prisoner Cases, Sotomayor Says The appeals
court, which covers three Southern states, uses procedures “out of step with other courts,”
3

trustworthiness, or fitness, engaging in conduct involving dishonesty, fraud,
deceit, or misrepresentation, require a lawyer to reveal a material fact to the
tribunal, prohibit false evidence.
18. The Isicoff Insider Team has violated these ethical rules and is subjected to ABA
and Florida Bar Standards for Lawyer Sanctions § 5.11(b) (1986) (disbarment
appropriate when lawyer engages in "intentional conduct involving dishonesty,
fraud, deceit, or misrepresentation that seriously adversely reflects on the
lawyer's fitness to practice.").
19.In a void illegal order by Laurel Isicoff (App. H-2) she stray dehors the record by
attacking Petitioner for reporting Respondent’s crimes and violates judicial
canons requiring she report wrongdoing.
20. Laurel Isicoff by extrajudicial activities in violation of Judicial Canon 4 4 has
insidiously assembled a tight core of “insiders” (the “Isicoff Insider Team”), an
impenetrable unit that illegally controls her bankruptcy proceedings. 5
21. This also violates ABA rules as the Isicoff Insider Team are ordinarily before
' her; regularly engaged in adversary proceeding in any court; and routinely sue
persons in bankruptcy in conflict of interest of the duty of a trustee to act
independently and comply with ethical rules of U.S. Trustee Program.

4 4. (B) Civic and Charitable Activities. A judge may participate in and serve as an officer,
director, trustee, or nonlegal advisor of a nonprofit civic, charitable, educational, religious, or social
organization, subject to the following limitations:
(1) A judge should not serve if it is likely that the organization will either be engaged in
proceedings that would ordinarily come before the judge or be regularly engaged in
adversary proceedings in any court.
5 https://www.npr.org > sections > thetwo-wav > 2011/12/30
Dec 30, 2011 - Judge Laurel Isicoff,... bankruptcy trustee Joel Tabas
Florida Southern Bankruptcy Court Case l:18-bk-17608 ...
Jun 26, 2018 - Assigned to: Laurel M Isicoff... Joel Tabas, trustee...
Aug 17, 2012 - Bankruptcy Judge Laurel M. Isicoff... attorney Joel Tabas
Florida Southern Bankruptcy Court Case l:18-bk-13717 Mar 29, 2018 - Assigned to: Laurel M Isicoff Trustee Joel L Tabas
Jan 11, 2018 - Bankruptcy Transmittal by Joel L Tabas ... Laurel M. Isicoff,
Bankruptcy Judge Laurel M. Isicoff attorney Joel Tabas
Sep 10, 2013 - Bankruptcy Judge Laurel M. Isicoff Joel Tabas trustee
LAUREL M. ISICOFF, Bankruptcy Judge. Joel L. Tabas, Trustee, ...
4

22. Petitioner was forced to sue Laurel Isicoff who refused to provide financial
disclosure statements in criminal and civil violation of the Ethics in Government
Act of 1978.
23. That lawsuit was dismissed by a judge without merits adjudication.
24. Isicoff s financial statements in illegible form then mysteriously appeared.
25. The failure to provide financial disclosure has ominous significance as Laurel
Isicoff issues illegal astronomical fees to the Isicoff Insider Team 6 that violate
11 U.S. Code § 326 7 limiting compensation.
26. It is reported Laurel Isicoff signed a bankruptcy settlement where an Isicoff
Insider Team trustee received $13.5 million.8 By law, he was limited to
approximately $1,000,000.
27. This illegal payment by Laurel Isicoff violates 18 U.S.C. § 641; 18 U.S.C. § 645;
18 U.S.C. § 654; 18 U.S.C. § 872. U.S.C.§ 880; and 18 U.S.C.§ 912.
28. Laurel Isicoffs deplorable conduct was reported in a prominent out of state
bankruptcy attorney matter. 9
29. Bankruptcy court corruption is well known and exposed by former U.S. attorney
general, John Ashcroft at a speech he fittingly gave before the Hague Global
Forum 10 stating:

6 South Florida Lawyers Are Raking In Millions Working in ...
finance.yahoo.com/news/south-florida-lawyers...
Joel L. Tabas of Tabas Soloff in Miami billed the second highest fees, clocking $7.8 million.
7 11 U.S. Code § 326.Limitation on compensation of trustee
s DECEMBER 9, 2013 DAILY BUSINESS REVIEW tabassoloff.com/uploads/files/tabas_dailybizreview.pdf
When U.S. Bankruptcy Judge Laurel Isicoff in Miami signed off on the settlement the total recovery
reached about $41 million, of which the Tabas Freedman firm gets to keep about $13.5 million.
9French Fry Remark Proves Costly For McDermott Head - www.law360.com/articles/27556/frenchfry-remark. Smith's verbal gaffe cost him Mount Sinai as a client.
https://www.chicagobusiness.eom/article/20070619/NEWS04/200025379/client-drops-happy-meallawyer-s-firm https://myshingle.eom/2007/05/articles/ethics-malpractice-issues/you-know-what-thisjudge-was-a-fewfries-shy-of-a-happy-meal
10 To Hague Global Forum on Corruption AG Aschroft...
http 8 ://w w w. dailykos. com/stories/2012/5/5/1089083/...
U.S. Attorney General John Ashcroft penned that corruption goes all the way to the top where
he wrote this to the Hague...

5

"Bankruptcy court corruption is not just a matter of bankruptcy trustees in
collusion with corrupt bankruptcy judges. The corruption is supported, and
justice hindered by high ranking officials in the United States Trustee Program.
The corruption has advanced to punishing any and all who mention the criminal
acts of trustees and organized crime operating through the United States
Bankruptcy Courts. As though greed is not enough, the trustees, in
collusion with others, intentionally go forth to destroy lives. Exemptions
provided by law are denied debtors. Cases are intentionally, and unreasonably
kept open for years. Parties in cases are sanctioned to discourage them from
pursuing justice. Contempt of court powers are misused to coerce litigants into
agreeing with extortion demands. This does not ensure integrity and restore
public confidence. The American public, victimized and held hostage by
bankruptcy court corruption, have nowhere to turn."
30. Laurel Isicoff illegally, retaliatory seized Petitioner’s home and life savings in
Respondent’s fabricated bankruptcy claim.
D. OTHER INEXTRICABLY INTERTWINED CASES
17th CIRCUIT BROWARD COUNTY CASE: 2018 - 021101
11th CIRCUIT MIAMI-DADE COUNTY CASE: 19-4417
31. Jurisdiction-less judges Carol Lisa Phillips and Milton Hirsch are disqualified as
a matter of law and fact as they failed to respond to Petitioner’s Motion for
Disqualification within 30 days as required by law.
32. In violation of the Hobbs Act, 18 U.S.C.§1951 they threaten Petitioner to appear
in their jurisdiction-less court.
33.As Petitioner questioned misrepresentations in their financial statements and
suspicious undisclosed income that could be tainted by investments related to
inextricably intertwined parties, Petitioner is retaliated.
34. There is never hearing or adjudication on the merits of any matter sought by
Petitioner.
35. The same inextricably intertwined parties including Mark Raymond and Carl
Rosen who are an integral part of the Respondent’s criminal scheme and the
same intimidation tactics, retaliation and gag orders are used.

6

36. Carl Rosen has a history of extorting family member clients and sued for
$250,000,000 for these acts. 11
37.All parties work in unison by concurrent filings and illegal orders to deprive
Petitioner of her rights and property.
38. Petitioner’s efforts to obtain appellate remedy is futile.
JURISDICTION
"EQUAL JUSTICE UNDER LAW"- These words, written above the main entrance
to the Supreme Court Building, express the ultimate responsibility of the Supreme
Court of the U. S. As the final arbiter of the law, the Court is charged with ensuring
the American people the promise of equal justice under law and, thereby, also
functions as guardian and interpreter of the Constitution.
THIS MATTER CONSTITUTES A DANGEROUS CONSTITUTIONAL CRISIS
THE WRITS REQUESTED ARE EXTRAORDINARY, PRECEDENT SETTING
AND OF MANIFEST AND OVERRIDING PUBLIC IMPORTANCE.
THE EXTRAJUDICIAL ORDERS SHOCK THE CONSCIENCE
AND CAN NOT STAND
39. The ex parte Extrajudicial Orders of Joan Lenard, a mere Federal trial judge
usurp and abolish the Constitution.
40. Joan Lenard purports to eviscerate this Supreme Court’s jurisdiction under the
Constitution, Judiciary Act of 1789 and 28 U.S.C. § 1651.
41. The ex parte Extrajudicial Orders place all Americans and anyone who enters
American courts in danger and civil jeopardy.
42. Petitioner is unable to obtain remedy in any court, having been illegally stripped
of all rights.
43. Petitioner reasonably fears future retaliation.

11 Rebecca and Steven Scott allege in their complaint filed in Florida state court that Carl Rosen,
created a conflict by agreeing to set up trusts for their children and Steven's mother but then went
behind their backs to work separately with their oldest son Jan 17, 2020 Nelson Mullins Sued for
Malpractice by Florida Counle
https://news.bloomberglaw.com > us-law-week > nelson-mullins-sued-for-...
7

44. Joan Lenard extra judicially used U.S. courts to effectuate a criminal
scheme/enterprise to defraud.
45. The ex parte Extrajudicial Orders and acts of other jurisdiction-less judges make
a Kafkaesque12 charade of the American judiciary.
46. Magna Carta, Chapter 61 provides the right to petition is a substantive
entitlement to redress. The petitions it contemplated were not political seeking
discretionary policy change, but legal seeking enforcement of pre-existing legal
rights. It established an explicitly mandatory relationship between petitioner,
recipient, and the rights-enforcing goal. Mandatory redress of the right to
petition was the mechanism Magna Carta selected to secure its underlying
rights. Chapter 61 is thus recognized as a precursor to the right of revolution.13
47. This right to redress was echoed by Justice Harlan in the Supreme Court case
Baltimore

&

Ohio

R.

Co.

207

U.S.

142

(1907),

stating:

“the right to sue and defend in the courts is the alternative of force.”
48. The Extrajudicial Orders replace the U.S. Constitution and rule of law with
Nuremberg law. In the Nuremberg Trial of Nazi Judge Oswald Rothhaug the
Court found in its sentencing judgment that:
"By his manner and methods he made his court an instrumentality
of terror and won the fear and hatred of the population. From the
evidence of his closest associates as well as his victims, we find that
Oswald Rothaug represented in Germany the personification of the
secret Nazi intrigue and cruelty. He was and is a sadistic and evil
man.

Under any civilized judicial system he could have been

impeached and removed from office or convicted of malfeasance in
office on account of the scheming malevolence with which he
administered injustice."14

12 https://www.merriam-webster.com/dictionarv/Kafkaesaue
relating to Franz Kafka especially having a nightmarishly complex, bizarre, or illogical quality. A
writer whose surreal fiction vividly expressed anxiety, alienation, and powerlessness
of the individual.Kafka's work is characterized by nightmarish settings in which
characters are crushed by nonsensical, blind authority. Thus, Kafkaesque is applied to
bizarre and impersonal situations the individual feels powerless to understand or
control.
13 https://law.vale.edu/sites/default/files/area/center/liman/document/50-4 cover.pdf
14 https://phdn.org/archives/www.mazal.org/NMT-HOME.htm
8

49. The extrajudicial judges herein have made the courts an instrumentality of
terror.
50. Their Orders threaten standing of U. S. as a free world nation.
51. This matter defines if the U.S. government itself sanctions massive human
rights violations.
52. Alexander Hamilton emphasized in Federalist 78 the courts were designed to be
“bulwarks of a limited Constitution.” The Constitution was written to limit
government power, but those limits are meaningless unless judges enforce the
Constitution and restrain public officials when they overstep their bounds.
53. The Declaration of Independence provides for preservation and protection of
unalienable rights. It says “all men are created equal, that they are endowed by
their Creator with certain unalienable rights like life, liberty and the pursuit of
happiness." These rights cannot be bartered away, or given away, or
taken away except in punishment of crime. Governments are instituted to
“secure," not grant or create, these rights.
This Supreme Court should override the district court judge’s attempt to undermine
and deprive this Court and all courts of jurisdiction and assert and exercise its
jurisdiction to abort the effort by the mere Federal trial judge to silence this
Supreme Court and all other courts.
The matters presented in these Writs are so offensive to the American legal system
this Supreme Court should comply with the duties to which it has accepted and
assume mandatory, original and sua sponte equitable jurisdiction.
This Honorable Court has legal,15 moral and ethical duty to remedy extrajudicial
punishment 16 in this case that shocks the conscience 17 and is a manifest and
unconscionable injustice.

is 42 U.S.C. § 1986
16 https://legal-dictionarv.thefreedictionarv.com/Extraiudicial+punishment
That which is done, given, or effected outside the course of regular judicial proceedings.
17 https://www.law.cornell.edu/wex/shocks the conscience
9

INTRODUCTION
54. Petitioner seeks a Writ of Mandamus and Writ of Prohibition to set aside this
monstrous jurisdiction-less mess deliberately fabricated by Joan Lenard and
Jonathan Goodman, a magistrate acting without jurisdiction or consent.
55. Petitioner also seeks a Writ of Mandamus and Writ of Prohibition to set aside
and put a stop to the inextricably intertwined Artifice/Scheme to Defraud by
Southern District Court bankruptcy judge, Laurel Isicoff and the Isicoff Insider
Team.
56. Petitioner also seeks a Writ of Mandamus and Writ of Prohibition to order Carol
Lisa Phillips and Milton Hirsch comply with law and concede

their

disqualification.
57. Petitioner’s home, life savings and property has been extorted by a void illegal
EX PARTE $1,700,000 judgment issued in a criminal scheme to defraud by
Respondent falsely claiming an “injury” from a company that does not exist and
acts of Joan Lenard and Jonathan Goodman who held an ex parte trial where
Petitioner was not present as she was deliberately deprived notice and
opportunity to appear.
58. Petitioner is retaliated 18 by the illegal void Ex Parte Judgment and Ex Parte
Rights Extinguishment Order and failure of the 11th Circuit to provide remedy
as she is forced into the unwilling position of a whistleblower.
59. In N.Y. Southern District Court Case l:20-cv-05614 filed by ACLU a judge found
Michael Cohen was retaliated stating “the Court finds that Respondents’
purpose in transferring Cohen from release on furlough and home confinement
back to custody was retaliatory in response to Cohen desiring to exercise his
First Amendment rights to publish a book critical of the President and to discuss
the book on social media.”
A phrase that can refer to any situation that seems grossly unjust. Judges often use this phrase to
determine which situations are so unjust or wrong that the court must intervene. If some event
shocks the court conscience, the court will look for some remedy to fix the problem. This Supreme
Court established the “shock the conscience” test in Rochlin v. California, 342 U.S. 165, 72 S. Ct. 205,
(1952). It is based on the Fourteenth Amendment’s prohibition against states depriving any person
of “life, liberty or property without due process of law. Justice Felix Frankfurter held certain conduct
“shocks the conscience” in that it offends “those canons of decency and fairness which express the
notions of justice of English speaking peoples.”
1818 U.S. Code § 1513.Retaliating against a witness, victim, or an informant
10

60. Canon 3 B (4) states: A judge should not retaliate against those who report
misconduct.
61. Petitioner is being criminalized, bullied, marginalized and stigmatized by labels
by extrajudicial acts of Joan Lenard.
62. As far back as 1820, Thomas Jefferson expressed concern of these acts.19
STATEMENT OF THE CASE
A. THE SCHEME TO DEFRAUD AND CRIMINAL ENTERPRISE
PERPETRATED BY RESPONDENT
63. Respondent, an officer of the court devised a criminal enterprise/scheme to
defraud by suing Petitioner falsely alleging he was “injured” from not being
hired by a company THAT DOES NOT EXIST.
64. As part of the scheme, Respondent falsely claimed David Nepo, a non-existing
member of the non-existent company had seen obscene materials formatted as
“forwarded” emails about him that he falsely alleged were sent by Petitioner.
65. It is proven the obscene “forwarded” emails were circulated by Respondent and
his family.
66. Florida Secretary of State Corporate Status Reports prove the fabricated
company does not exist (App. A-0-1; App. A-0-2; App D-Exh. C; App. E-Exh. A).
67. In the criminal enterprise, Respondent, his family and affiliates:
a. Circulated 20 and electronically transmitted 21 obscene materials for illegal
financial gain in violation of obscenity and racketeering 22 laws. See also
Carpenter v. United States, 484 U.S. 19 (1987).
b. tampered with Petitioner’s mail, criminally violating Federal law.23
19 Thomas Jefferson on Judicial Tyranny: “The judiciary of the United States is the subtle corps of
sappers and miners constantly working under ground to undermine the foundations of our
confederated fabric...” (Letter to Thomas Ritchie, Dec. 25, 1820)
20 Distribution of obscene material 18 U.S. Code § 1461. Mailing obscene or crime-inciting matter 18
U.S. Code § 1465. Production and transportation of obscene matters for sale or distribution.
21 sections 1461-1465; 15 U.S.C. § 7703.
22 18 U.S.C. 1961/1964
2318 U.S.C. Section 1341—Elements of Mail Fraud | JM ...
18 U.S. Code § 1346 - Definition of “scheme or artifice to ...
Mail Fraud And Other Fraud Offenses
11

c. suborned testimony;
d. committed perjury;
e. criminally financially exploited a vulnerable adult.
68. The obscene emails include fantasies Respondent expressed to his daughter
about being sodomized by male prisoners:
“DADDY with the money I have stolen i develop you to an actress. I tricked
helpless people under guardianship and stole money from charities.” The email
goes on to state:
“Erica, that ok when Daddy is in prison you can be a waitress abd (sic)
give him money.

Actually Daddy will like taking shower parties in

prison so maybe you should start buying soap now and baby powder for
his swollen a... when he f... around there!”
69. Obscenities include perverted references to his daughter’s anatomy:
Respondent describes in other emails his daughter has an ugly nose, face,
and “c_nt” and should “start playing in a circus”; is a little “c_nt” and an “ugly
c_nt”, “eats cat food and takes drugs.”
Another document states Respondent's daughter is stupid and "so ugly
like MAMA!"
70. Respondent, his family and others communicate with each other by perverse,
obscene language as shown by these obscene emails:
•

“Daddy doesn’t care about human beings.
He gives a fu**ck about gay Greg. He is happy now!
Who will be next? Maybe you.......
Did you tell DADDY about your drinking problem?
Happy hanukkah you poor thing. Sent from hell.

•

Hi you ugly cu**nt!

By the way, when is your big “drunk” fat greek

wedding?
71. Subjecting Petitioner to obscenities constitutes sexual harassment and stalking.
72. These matters mandate independent criminal investigation.

12

73. A Federal judge demanded resignation of an attorney who engaged in such acts.
“You Just Trashed Your Profession,” U.S. District Judge Otis Wright II told
attorney Christopher Hook before asking him to resign. At issue were emails
Hook wrote to opposing counsel telling them to “eat a bowl of d..... ” and “pay up
f...face.” 24
74. Respondent repeatedly lied under oath and committed perjury (crimes he was
also found guilty of by the 3rd D.C.A.) by:
a. falsely testifying under oath his daughter Erica Lustig did not own the email
address Erica.lustig@aol.com when she does own that email address (App. A0-3 and App. A-3)
b. falsely testifying Petitioner owned that email address when he knew it was
owned by his daughter.
c. falsely testifying he was not found guilty of crimes when he was adjudicated
guilty of felony crimes by the 3rd D.C.A.
75. Respondent obtained illegal financial gain by embezzling assets of Petitioner’s
family member in another court to pay himself and his attorney to sue Petitioner
(App. A-0-4 and App. D-Exh J) in criminal violation of 42 U.S.C. § 3002; 10
U.S.C. § 921, 18 U.S.C. § 3559(c)(2)(C); 31 U.S.C.§ 3729; Florida Stat. 825.103.
76. Filing false statements and submissions violates criminal laws. 25
77.Nepo’s fraudulent filings criminally violates 18 U.S.C. § 1001. 26
78. Suborning and tampering with a witness 27and perjury by Respondent and
Nepo28 violates Federal laws.
79.These are “Predicate Acts” in a racketeering enterprise.

18 U.S.C. § 1962(d).

Salinas v. United States, 522 U.S. 52, 61 (1997).

24

https://www.law.com/therecorder/2019/12/16/iudge-demands-resignation-of-lawver-who-wroteprofanitv-laced-emails/
25 8 U.S.C. § 1324c; 18 U.S.C. § 1038.False information and hoaxes;
18 U.S.C. § 1001; 18 U.S.C. § 1623. False declarations before grand jury or court.
26 18 U.S.C. § 1001.Statements or entries generally
2718 U.S.C. § 1512 - Tampering with a witness, victim
28 18 U.S.C. § 1621 - Perjury generally

13

B. VIOLATION OF PETITIONER’S CONSTITUTIONAL, CIVIL AND
DUE PROCESS RIGHTS BY EXTRAJUDICIAL JOAN LENARD
80. This criminal scheme was effectuated by Joan Lenard who issued a “default”
against Petitioner who was not in default having filed a timely Affidavit under
penalties of perjury the same day stating she was not receiving her mail, a fact
verified by mail returned to the court.
81. Petitioner learned her mail was interfered with by Respondent to deprive her
access to the court.
82. This constitutes “Extrinsic Fraud” and felony mail fraud.
83. Joan Lenard refused to vacate the illegal void default in violation of due process.
84. Joan Lenard unlawfully ordered Petitioner could not be provided court mail.
85. Joan Lenard issued an order acknowledging Petitioner did not agree to a
magistrate.
86. In violation of her own order and 28 U.S.C. § 636 and knowing of Respondent’s
criminal scheme and fraud on the court, Joan Lenard ordered an “injury” trial be
held by a magistrate, Jonathan Goodman.
87. Joan Lenard preposterously used Respondent’s own illegal “findings” to issue a
void, illegal Ex Parte $1,700,000 Judgment against Petitioner (See Paragraph 89
h.)
C. VIOLATION OF PETITIONER’S CONSTITUTIONAL, CIVIL AND DUE
PROCESS RIGHTS BY EXTRAJUDICIAL JONATHAN GOODMAN
88.The magistrate in violation of Joan Lenard’s order and 28 U.S.C. §636 held an
illegal ex parte hearing.
89. At that unlawful ex parte hearing:
a. there

was

no

evidence;

no

I.P.

addresses,

computers

introduced,

authentication of the obscene purported AOL emails to which Petitioner was
falsely accused (and had attested under penalties of perjury she never had an
AOL address); no electronic records required by Rule 11 and 15 U.S.C; no
expert testimony; no production of evidence described by Respondent as
placed of record; no testimony by those Respondent claimed received obscene
purported emails; no verification of existence of the company fabricated by
Respondent as not hiring him; no identification of or testimony by the
14

purported partner who found Respondent’s self created obscene materials.
b. Respondent perjured himself when questioned if emails used the address of
any family members stating they did not when an email address was that of
his daughter.
c. Respondent perjured testimony when questioned if he had been found guilty
of a crime by replying no but this was not true as the 3rd DCA found
Respondent guilty of crimes.
d. the “injury” trial was held without notice to Petitioner and opportunity to
appear in court to defend herself as Petitioner’s mail was both deliberately
withheld from her by Joan Lenard and criminally tampered with by
Respondent;
e. the ex parte “injury” trial was by a magistrate, Jonathan Goodman acting
without jurisdiction and consent;
f. Jurisdiction-less Jonathan Goodman made no oral or written findings of
injury nor injury amount at the ex parte extrajudicial “injury” trial, instead
he illegally authorized Respondent to act in extrajudicial capacity and
prepare his own ex parte written “findings”;
g. Respondent himself made up his own illegal written “findings” of “injury” in
the sum of $1,700,000 and without Petitioner’s knowledge filed them in
violation of federal laws prohibiting filing false statements/ submissions into
a court proceeding. 29
h. Preposterously, Joan Lenard used Respondent’s own illegal “findings” to
issue the illegal void Ex Parte Judgment against Petitioner.
90. Following the illegal ex parte “trial”, the magistrate and trial judge were
informed of a phone-call to the clerk by a caller who reported fraudulent
activities of Respondent.
91. The trial judge and magistrate obstructed Petitioner’s justice, violated judicial
ethics by failing to notify Petitioner of the phone call and violated due process by
failing to hold a hearing to investigate the allegations therein.

29 8 U.S.C. § 1324c; 18 U.S.C. § 1038.False information and hoaxes
18 U.S.C. § 1001; 18 U.S.C. § 1623. False declarations before grand jury or court
15

D. RESPONDENT HAS A HISTORY OF CRIMES
92. Respondent has a history of crimes being found guilty of perjury, fraud on the
court, repeatedly lying under oath and subverting the court to achieve illegal
financial gain by the Florida 3rd D.C.A. in Leo’s Gulf Liquor u Lakhani 802 So 2d
337.
93. The court stated the obvious law:
“In Metropolitan Dade County v. Martinsen, 736 So.2d 794, 795 (Fla. 3d DCA
1999), this Court restated the well-settled principle "that a party who has
been guilty of fraud or misconduct in the prosecution or defense of a
civil proceeding should not be permitted to continue to employ the very
institution it has subverted to achieve her ends."
“The conclusion is inescapable that both Munder and Lustig, agents of the
corporate plaintiff, repeatedly lied under oath concerning issues material
to the prosecution of plaintiffs claim and defendants' affirmative
defenses, in an effort to conceal the truth and have consequently
forfeited plaintiffs right to proceed with this action.”
“We affirm the trial court's order dismissing this action with prejudice upon a
showing that all defendants have demonstrated clearly and convincingly that
the deposition testimony of Messrs. Munder and Lustig "set in motion [an]
unconscionable scheme calculated to interfere

with the judicial

system's ability impartially to adjudicate" this law suit.
“Canon 3 D(2) of the Code of Judicial Conduct reads: "A judge who receives
information or has actual knowledge that substantial likelihood exists that a
lawyer has committed a violation of the Rules Regulating The Florida Bar shall
take appropriate action." ...we believe there is substantial likelihood Roy
Lustig has violated those rules and therefore we refer him to The
Florida Bar for

a

determination as

to

whether

he

should

be

professionally disciplined.”
“We further refer this case to the State Attorney for the Eleventh Judicial
Circuit of Florida for a determination of whether charges of perjury should
be brought against both Arturo Munder and Roy Lustig.”

16

94. Notwithstanding the 3rd D.C.A. order stating the matter would be sent to the
State Attorney and Florida Bar for criminal investigation and discipline, this
i

was never done.

30

95.Thus Respondent, was unleashed on the public and Petitioner in violation of
federal laws and judicial ethics. 31
E. RESPONDENT HAS A PATTERN OF EXTORTING PETITIONER,
HER FAMILY AND HER ATTORNEYS IN INEXTRICABLY
INTERTWINED SCHEMES
96. An attorney for Petitioner and her family filed an Affidavit attesting she was
threatened by Respondent (App. A-0-5 and App. D- Exh E).
97. Respondent has extorted Petitioner’s family member’s assets.
98. All Writs Petition/Appeal filed with the 11th Circuit (App. D), and Supplements
(App. E and App. F) ties in this scheme with other criminal schemes of
Respondent involving Petitioner’s vulnerable adult family member, now
deceased where Respondent embezzled her assets to pay himself and his
attorney to sue Petitioner in this and other fraudulent schemes.
F.

JOAN LENARD RECKLESSLY PLACED PETITIONER AND COUNSEL IN
DANGER BY THE ILLEGAL VOID EX PARTE
RIGHTS EXTERMINATION ORDER

30 Similar acts perpetrated by an attorney resulted in their disbarment. See ABA and Florida Bar
Standards for Imposing Lawyer Sanctions § 5.11(b) (1986) (disbarment appropriate when lawyer
engages in "intentional conduct involving dishonesty, fraud, deceit, or misrepresentation that
seriously adversely reflects on the lawyer's fitness to practice."). See The Florida Bar u. Kleinfeld,
648 So. 2d 698, 701 (Fla. 1994).
31 ABA Canon 3D(2) lists two ethical obligations for a judge who learns of ethical violations by an
attorney: A judge who receives information indicating a substantial likelihood that a lawyer has
committed a violation of the Rules of Professional Conduct... should take appropriate action. A judge
having knowledge that a lawyer has committed a violation of the Rules of Professional Conduct ...
that raises a substantial question as to the lawyer’s honesty, trustworthiness or fitness as a lawyer
in other respects shall inform the appropriate authority.
US Judicial Canon 3B(6): A judge should take appropriate action upon receipt of reliable information
indicating the likelihood that a judge’s conduct contravened this Code, that a judicial employee’s
conduct contravened the Code of Conduct for Judicial Employees, or that a lawyer violated,
applicable rules of professional conduct.
17

99. After Petitioner filed Declaratory Judgments, Joan Lenard issued a void,
illegal, retaliatory, Ex Parte Rights Extermination Order that:
a. Disables and strips Petitioner and counsel of all Constitutional rights and
prohibits Petitioner access to ALL courts;
b. Tramples the Declaration of Independence that prohibits seizure of rights
except under limited circumstance (in criminal matters);
c. Terrorizes, targets and places Petitioner and counsel in reckless danger by
prohibiting them from reporting crimes of Respondent and unnamed parties;
d. Criminally orders Petitioner’s counsel to violate Attorney Ethics that
mandate counsel report crimes and wrongdoing;
e. Forced Petitioner to terminate her counsel as Petitioner refuses to place
counsel in danger;
f. Interferes in the attorney/client relationship between Petitioner and counsel.
g. Deprives Petitioner right to counsel;
h. Threatens Petitioner to be controlled by acts of a magistrate without
jurisdiction, authority or consent;
i. Employs cruel and unusual punishment under Amendment VIII and XIV;
j. Dehors the record by misrepresenting case holdings and cases of no
application;
k. Dehors the record with false, defamatory and character maligning
statements against Petitioner;
l. Evidences collusion with an illegal financial windfall by Respondent who
extorted assets of a vulnerable adult as she failed to investigate and report
as required by judicial canons and law;
100. The enormity of this inconceivable, monstrous ruling affects the legitimacy of
the entire American legal system.
101. This matter constitutes a dangerous Constitutional crises affecting not only
Petitioner but anyone in the world who enters jurisdiction of American courts.
102. It violates the Constitution and law to force Petitioner to navigate a labyrinth
of crimes and fraud on the court; retaliated for reporting wrongdoing; cowered
18

by bullying and human rights violations by extrajudicial officers using their
power as a weapon to silence her; defamed by self-serving labels falsely
maligning her without hearing, evidence or cause tantamount to casting her as
a “judicial adulterer” reminiscent of midcentury witch-hunts.
REASONS FOR GRANTING THE PETITION
This case epitomizes disintegration of the American legal system as reported by
prominent media.32 Thomson Reuters was prompted to

do

an extensive

investigative series. 33
Former Supreme Court of Arizona Justice John M. Molloy authored a book: “The
Fraternity:

Lawyers and Judges in Collusion34 exposing wrongdoing. Excerpts

include:
Disturbing evolution: Our Constitution intended only elected lawmakers
be permitted to create law. Yet judges create their own law. It’s called case
law, and is churned out daily through rulings. When a judge hands down a
ruling and it survives appeal, it becomes case law. This happens so
consistently we’ve become more subject to case rulings of judges than laws by
lawmaking bodies. This continuously modifies Constitutional intent.
Lawyer domination: When a lawyer takes the bench, he/ she is called a
judge. But in reality, when judges look down from the bench they are lawyers
looking upon fellow members of their fraternity. In any other area of the
free-enterprise system, this would be seen as a conflict of interest.
When a lawyer takes an oath as a judge, it merely enhances the ruling class of
lawyers and judges.

32 The American Justice System Is Broken I National Review
www.nationalreview.com/2016/01/american-justice...
U.S. heading toward lawlessness - Washington Times
www.washingtontimes.com/news/2017/mar/22/us...
33 Thousands of U.S. judges who broke laws or oaths
https://www.reuters.com > special-report > usa-iudges-misconduct Jun 30, 2020
With 'judges judging judges.' rogues on the bench have little to ...
https://www.reuters.com > investigates > special-report) usa-iudges-deals
34 The Fraternity: Lawyers and Judges in Collusion: John ... /
www .amazon.com/Fraternity-Lawyers-Judges...
As lawyer and judge for half a century, John Fitzgerald Molloy both profited from our legal system
and saw how it has been altered in favor of lawyers.

19

Surely it’s time to question what happened to our justice system and
wonder if it is possible to return to a system that truly does protect us
from wrongs.”
A. THE EX PARTE JUDGMENT IS VOID AND ILLEGAL
Petitioner’s home, life savings, possessions and rights have been illegally seized in
violation of the Constitution and law by an illegal void Ex Parte Judgment.
Respondent is an “officer of the court.” When any officer of the court commits fraud
during a court proceeding, he is engaged in "fraud upon the court" mandating
overturn of the Ex Parte Judgment.
"Fraud upon the court" is defined by the 7th Circuit Court of Appeals to "embrace
that species of fraud which does, or attempts to, defile the court itself, or is a fraud
perpetrated by officers of the court so that the judicial machinery can not perform in
the usual manner its impartial task of adjudging cases that are presented for
adjudication. " Kenner v. C.I.R., 387 F.3d 689 (1968); 7 Moore's Federal Practice, 2d
ed., p. 512. The 7th Circuit stated "a decision produced by fraud upon the court is
not in essence a decision at all, and never becomes final."
Extrinsic fraud includes hiding the true facts of the case; attempts to keep
plaintiff away from court or threats to prevent a litigant from prevailing.
Respondent engaged in extensive extrinsic fraud by fabricating a fake claim and
preventing Petitioner from accessing the court.
It is well settled principals of equity in the leading Supreme Court case Hazel-Atlas
Glass Co. u. Hartford-Empire Co. 322 U.S. 238 (1944) that fraud on the court
renders a judgment void. The Supreme Court stated therein: “Every element of the
fraud here disclosed demands the exercise of the historic power of equity to set aside
fraudulently begotten judgments. This is not simply a case of a judgment obtained
with the aid of a witness who, on the basis of after-discovered evidence, is believed
possibly to have been guilty of perjury. Here, even if we consider nothing but
Hartford's sworn admissions, we find a deliberately planned and carefully executed
scheme to defraud not only the Patent Office but the Circuit Court of Appeals.” We
hold, therefore, that the Circuit Court on the record here presented had
both the duty and the power to vacate its own judgment.”
20

In Bulloch v. United States, 763 F.2d 1115, 1121 (10th Cir. 1985), the court stated
"Fraud upon the court is fraud which is directed to the judicial machinery itself and
is not fraud between the parties or fraudulent documents, false statements or
perjury. ... It is where the court or a member is corrupted or influenced or influence
is attempted or where the judge has not performed his judicial function — thus
where the impartial functions of the court have been directly corrupted."
The Ex Parte Judgment is void and illegal as American courts are not intended to
be used to effectuate an Artifi.ce/Scheme to defraud and crimes.
This matter goes far beyond “fraud on the court” and “Extrinsic Fraud.” Respondent
perpetrated a staggering array of Federal felony crimes and criminally
defiled a U.S. court for illegal financial gain. The Ex Parte Judgment never
became an “Order” and is not governed by any time constraints. Moreover, Joan
Lenard was repeatedly informed by Petitioner of Respondent’s crimes that were
obvious on their face but she silenced and deprived Petitioner’s rights.
It is an obvious and Commonsense 35 principle in the Federalist Papers a party
cannot benefit from his own fraud. That cheaters should not be allowed to prosper
has long been central to the moral fabric of our society and legal system.
This is a colossal, epic farce where Respondent fabricated injury, an illegal ex parte
hearing held by a magistrate without jurisdiction to which Petitioner had no notice
or opportunity to appear, obscenities formatted as forwarded emails were created by
Respondent himself; fabricated “testimony” of Respondent’s buddy was made on
behalf of a non-existent company; no “findings” by the magistrate were made; and
Respondent made his own “findings” illegally used to issue an Ex Parte Judgment
by Joan Lenard.
When these matters were reported to Joan Lenard, she issued the Ex Parte Rights
Extinguishment Order stripping Petitioner of her right to appear and defend

35 Federalist No 83 - The Avalon Project / httvs://avalon.law.yale.edu > fed83
The rules of legal interpretation are rules of COMMONSENSE, adopted by the courts in the
construction o/the laws.
21

actions in all courts in the country, including this Supreme Court and placed
Petitioner and counsel in danger by illegally ordering they could not report crimes
Throughout this farcical matter, Petitioner deliberately was deprived of notice and
an opportunity to appear in court; deprived of her mail by Joan Lenard and her mail
was criminally tampered with by Respondent.
“No breach of professional ethics, or of the law, is more harmful to the
administration of justice or more hurtful to the public appraisal of the legal system
than the knowledgeable use by an attorney of false testimony in the judicial process.
When it is done it deserves the harshest penalty”. Dodd v. The Florida Bar, 118 So.
2d 17, 19 (Fla. 1960).
There is no statute of limitations for bringing a fraud upon the court claim. HazelAtlas, 322 U.S. at 244. “A decision produced by fraud on the court is not in essence
a decision at all and never becomes final.”

Kenner v. Comm’r of Internal

Revenue, 387 F.2d 689, 691 (7th Cir. 1968).
B. THE EX PARTE EX PARTE RIGHTS EXTINGUISHMENT ORDER
IS VOID AND ILLEGAL
The right to sue and defend in the courts is one of the highest and most essential
privileges of citizenship. This right is of such overriding importance it is set forth in
the very first Amendment and reiterated in subsequent Amendments:
Amendment I:
“Congress shall make no law respecting an establishment of religion, or prohibiting
the free exercise thereof; or abridging the freedom of speech, or of the press; or the
right of the people peaceably to assemble, and to petition the Government for a
redress of grievances.”
Amendment V:
"No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a grand jury, except in cases arising in the
land or naval forces, or in the militia, when in actual service in time of war or public
danger; nor shall any person be subject for the same offense to be twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without just compensation."
Amendment XIV: Section 1.
22

All persons born or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the state wherein they reside. No
state shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.
Justice Harlan in the Supreme Court case Baltimore & Ohio R. Co. 207 U.S. 142
(1907), stated: “the right to sue and defend in the courts is the alternative of
force.”
These fundamental rights are ingrained in the law of the land and founded on the
precursors to the Constitution, i.e.: the Magna Carta, Federalist Papers, and
Declaration of Independence.
The Magna Carta is a 1215 charter of rights and Europe’s first written constitution.
It inspired the principles of the Bill of Rights: a government should be
constitutional, the law of the land should apply to everyone, and certain rights
and liberties were

so

fundamental

that their violation was

an

abuse

of

governmental authority.
Magna Carta clause 39 reads:

“No free man shall be seized or imprisoned, or

stripped of his rights or possessions, or outlawed or exiled, or deprived of his
standing in any other way, nor will we proceed with force against him, or send
others to do so, except by the lawful judgment of his equals or by the law of the
land.” “By the law of the land,” set the standard for what is now known as due
process of law.
Magna Carta clause 40 reads: To no one will we sell, to no one deny or delay right
or justice.
The Declaration of Independence provides for preservation and protection of
unalienable rights. It says “all men are created equal, that they are endowed by
their Creator with certain unalienable rights like life, liberty and the pursuit of
happiness." These rights cannot be bartered away, or given away, or taken
away except in punishment of crime. Governments are instituted to “secure,"
not grant or create, these rights.

23

Federalist Papers No. 78 states the power of judicial review should be used by
the judicial branch to protect the liberties guaranteed to the people by the
Constitution and to provide a check on the power of the legislature.
C. VIOLATION OF FUNDAMENTAL, INALIENABLE CONSTITUTION
RIGHTS AND DUE PROCESS AND
NOTICE AND OPPORTUNITY TO BE HEARD
Basic elements of due process in any judicial proceeding are notice and opportunity
to be heard.

Molloy v Astrue, 2010 WL 421090, Civil Action No. 08-4801(JAG)

states: “The fundamental requisite of due process of law is the opportunity to be
heard” at a “meaningful time and in a meaningful manner.” Goldberg v. Kelly, 397
U.S. 254, 267, (1970). To ensure an opportunity to be heard is meaningful, the Due
Process Clause requires adequate notice of a hearing be provided. Mullane v.
Central Hanover Bank & Trust Co., 339 U.S. 306, 314 (1950) (“Th[e] right to be
heard has little reality or worth unless one is informed that the matter [affecting
one’s property rights] is pending and can choose for himself whether to appear or
default, acquiesce or contest.”).
The illegal default, wrongfully issued to which Petitioner timely notified the court
she had no notice, deprived her of her right to an opportunity to be heard in
violation of due process, Gomez v. U.S., 490 U.S. 858, 876 (1989).
After the court determined the magistrate had no authority to conduct a hearing on
damages, the magistrate conducted just such a hearing without consent and in
violation of 28 USC § 636, Club Misty, Inc. v. Laski, 483 F.3d 942, 951 (9th Cir.
2007).
The district court’s failure to conduct an evidentiary hearing on Petitioner’s motion
for relief from judgment, where she attested under penalties of perjury to
Respondent’s fraud on the court and unlawful conduct deprived her of due process
and an opportunity to present evidence. St. Thomas & St. John Police Benevolent
Association v. Virgin Islands Police Department, 2016 WL4581322, at *7 (V.I.
Super., 2016).

24

D. JOAN LENARD AND JONATHAN GOODMAN
ACTED WITHOUT JURISDICTION
Joan Lenard and Jonathan Goodman acted without jurisdiction in effectuating an
Artifice/Scheme to Defraud and violating Petitioner’s Constitutional rights.
Any judge who acts above the law has no jurisdiction. Constitution Supreme Clause
Article VI, Clause 2 (This Constitution, and the Laws of the United States which
shall be made in Pursuance thereof;

shall be the supreme Law of the Land;

and the Judges in every State shall be bound thereby, any Thing in the Constitution
or Laws of any state to the Contrary notwithstanding).
The presence of malice and the intention to deprive a person of his civil rights is
wholly incompatible with the judicial function. Pierson v. Ray, 386 U.S. 547 (1967).
Whenever a judge acts where he/she does not have jurisdiction to act, the judge is
engaged in an act or acts of treason. S. v. Will, 449 U.S. 200, 216, (1980); Cohens v.
Virginia, 19 U.S. (6 Wheat) 264 (1821).
When a judge acts intentionally and knowingly to deprive a person of his
constitutional rights he exercises no discretion or individual judgment; he acts no
longer as a judge, but as a “minister” of his own prejudices. Pierson Et Al. v. Ray Et
Al. The judge delegated decision making to a non-judge magistrate who acted
without jurisdiction, U.S. v. Gamba, 483 F.3d 942, 951 (9th Cir. 2007).
E. VOID ORDERS
If a court is without authority, its judgments and orders are regarded as nullities.
They are not voidable, but void; and form no bar to a recovery sought, even prior to
a reversal. They constitute no justification; and all persons concerned in executing
such judgments or sentences, are considered, in law, as trespassers.

A party

affected by void judicial action need not appeal. State ex rel. Latty, 907 S.W.2d at
486.
The law is well-settled that a void order or judgment is void even before reversal",
Valley v. Northern Fire & Marine Ins. Co., 254 U.S. 348 (1920) "Courts are
constituted by authority and they cannot go beyond that power delegated to them. If
they act beyond that authority, and certainly in contravention of it, their judgments
and orders are regarded as nullities; they are not voidable, but simply void, and this
25

even prior to reversal." Williamson v. Berry, 8 How. 945 (1850). A void judgment
may be attacked at any time. Hertz Corp. v. Alamo Rent-A-Car, Inc., 16 F.3d 1126,
1130 (11th Cir. 1994).
Elliot v. Piersol (one who seeks to enforce a void judgment is a “trespasser”).
F. MANIFEST INJUSTICE
A PERSON CANNOT BENEFIT FROM HIS CRIMES
Riggs v. Palmer, 115 N.Y. 506 (1889) states the obvious: No one shall be permitted
to profit by his own fraud, take advantage of his own wrong, found any claim upon
his own iniquity, or acquire property by his own crime. These maxims are dictated
by public policy, have their foundation in universal law administered in all civilized
countries, and have nowhere been superseded by statutes.
They were applied in New York Mutual Life Insurance Company v. Armstrong, 117
U.S. 591 (1886) holding the person who procured a policy on the life of another,
payable at his death, and then murdered the assured to make the policy payable,
could not recover. Justice Field said: "Independently of any proof of the motives of
Hunter in obtaining the policy, and even assuming that they were just and proper,
he forfeited all rights under it when, to secure its immediate payment, he murdered
the assured. It would be a reproach to the jurisprudence of the country if one could
recover insurance money payable on the death of a party whose life he had
feloniously taken. As well might he recover insurance money upon a building that
he had willfully fired."
An exhaustive case law analysis is set forth in Article XIV of App. D to which this
Court is refei’red.
CONCLUSION
This monstrous case of manifest injustice shocks the conscience. This Supreme
Court itself should be offended at the monumental Machiavellian scheme to defraud
and subversive acts perpetrated by Respondent and extrajudicial acts of Joan
Lenard, a mere district court judge who has tainted the jurisdiction and authority of
this court and the entire judicial system.

26

Wherefore, Petitioner prays this U.S. Supreme Court to:
a. issue the Writ of Prohibition and Writ of Mandamus to the 11th Circuit and Joan
Lenard prohibiting the jurisdiction-less enforcement of the extrajudicial Ex
Parte Judgment and Ex Parte Rights Extinguishment Order and ordering the
11th Circuit and Joan Lenard vacate the Ex Parte Judgment and Ex Parte
Rights Extinguishment Order, and ordering the return of all assets illegally
seized by Respondent;
b. issue the Writ of Prohibition and Writ of Mandamus prohibiting jurisdiction-less
enforcement of the Extrajudicial Bankruptcy Orders relating to the fabricated,
fraudulent claim of lien filed by Respondent using the fabricated, fraudulent Ex
Parte Judgment by Southern District Court bankruptcy judge, Laurel Isicoff and
ordering Laurel Isicoff to vacate all such orders and ordering the return of all
assets illegally seized from Petitioner by Respondent, trustee, attorney for
trustee and all other involved parties; and
c. issue the Writ of Prohibition and Writ of Mandamus prohibiting disqualified
Judge Carol Lisa Phillips, and Judge Milton Hirsch from presiding in cases in
which they are disqualified and from exercising extrajudicial powers.
Respectfully Submitted,
th-rx „
Barbara Stone
19 W.Flagler St. Ste. 404
Miami, FL 33130
Tel: 305-358-9971
Barbara.stone.usa@gmail.com

27

